Inspection Report No. OIG-INS-07-00-04: Accounting and Reporting Systems in the Cleveland Regional Office
Inspection Report No. OIG-INS-07-00-04 Accounting and Reporting Systems in the Cleveland Regional Office
UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General
Memorandum
July 6, 2000
To: Frederick Calatrello
Regional Director, Region 8
From: Jane E. Altenhofen
Inspector General
Subject: Inspection Report No. OIG-INS-07-00-04: Accounting and
Reporting Systems in the Cleveland Regional Office
This inspection was conducted in conjunction with our audit of the
National Labor Relations Board's Fiscal Year 1999 accounting and reporting
systems. We selected four Regional Offices, including Region 8, the
Cleveland Regional Office (Cleveland), on a judgmental basis. Our
objective was to review functions that could effect the Agency's ability
to prepare audited financial statements including financial management,
backpay, time and attendance (T&A), and capitalized and sensitive
property.
Generally, record keeping for administrative matters was meticulous. We
did not identify anything adversely impacting the Agency's ability to
prepare audited financial statements based upon Cleveland's financial
management. We determined that procedures provided reasonable assurance
that the management of backpay meets Agency objectives. We found that
records accurately reflected capitalized and sensitive property. We also
found that documentation supporting T&A such as written approval of
work schedules, flex-time, granting of compensatory time, and authorizing
the use of annual and sick leave were maintained. Bi-weekly T&A
reports were initialed by the employee, timekeeper, and supervisor.
We did, however, identify two reportable issues. Clerical employees
were scheduled to work a 7 1/2 rather than 8 hour day, and advance sick
leave was not granted in accordance with Agency policy.
Scope
We interviewed responsible personnel to identify procedures relating to
financial management, the collection and distribution of backpay, controls
over capitalized and sensitive property, and the administration of T&A
practices. We reviewed applicable documentary evidence and performed a
physical inventory of capitalized and sensitive property, including all
computer equipment.
Capitalized and Sensitive Property
General Accounting Office Standards for Internal Control in the Federal
Government, updated in November 1999, call for accurate and timely
recording of transactions and events. Capitalized property consisted of
one photocopy machine. Sensitive property included computer equipment,
non-capitalized photocopy equipment, a television, two video cassette
recorders, and one mail meter. We found that records accurately reflected
capitalized and sensitive property.
Maintaining Time and Attendance Records
General Accounting Office Policy and Procedures Manual for Guidance
of Federal Agencies, Title 6 - Pay, Leave, and Allowances (Title 6),
dated March 22, 1996, states that documents supporting T&A should be
completed and maintained. Examples of such documents include those for
establishing (1) work schedules, (2) flexiplace arrangements, (3) leave,
(4) overtime, (5) compensatory time, and (6) credit hours.
Work Schedules
All professional employees in Cleveland worked the standard office
hours. A work schedule was maintained for clerical employees. The clerical
employee work schedule documented an 8 1/2 hour workday with an hour lunch
break, effectively a 7 1/2 hour work day. 5 U.S.C. § 6101 established a
40-hour work week for Federal employees. The Office of Personnel
Management reaffirmed this in guidance which states that Agencies are not
allowed to routinely permit employees to work less than an 80 hours in a
pay period, and hour long meal breaks, half of which is in a pay status
are not authorized.
In response to our draft report, the Regional Director informed
Cleveland's clerical support staff of the 40-hour work week requirement
and altered work schedules accordingly.
Flexiplace Arrangements
No Cleveland employees participated in the work-at-home program.
Leave Slips
Cleveland consistently used the Standard Form 71 to document sick and
annual leave usage.
Advance Sick Leave
Agency policy requires that an employee submit medical certification
when requesting advance sick leave. The Regional Director can approve up
to 4 days. For 5 or more days, the Regional Director must submit a
memorandum to the Division head justifying the advance. The Division head
is to respond either approving or disapproving the request.
We identified 4 employees with advance sick leave balances and reviewed
48 related transactions to determine whether documentary evidence was
maintained and approval was granted in accordance with Agency policy. None
of the employees was advanced 5 or more days of sick leave. Only 8 of 48
transactions were supported by a medical certificate.
In response to our draft report, the Regional Director informed
Cleveland's staff of Agency policies regarding advance sick leave.
Advance Annual Leave
Annual leave may not be advanced in excess of what the employee could
accrue by the end of the pay year. We reviewed all advance annual leave
balances and determined that leave was not advanced in excess of the
amount allowed.
Other Time
Compensatory time and overtime were properly approved and recorded into
the Agency's payroll system. Credit hours were not used.
Review and Approval of T&A Reports
Title 6 states that review and approval of T&A reports should be
made by the official, normally the immediate supervisor, most
knowledgeable of the time worked and absence of the employee. Since at
least March 1992, when Administrative Policy Circular (APC) 92-4 was
issued, Agency policy requires employees, timekeepers, and supervisors to
initial hard copy T&A reports. This policy was reaffirmed in APC
98-01, which was issued in response to an OIG finding that employees,
timekeepers, and supervisors frequently did not initial T&A reports as
required.
T&A reports were initialed by the employee, timekeeper, and
supervisor.
This review was done in accordance with the Quality Standards for
Inspections issued by the President's Council on Integrity and Efficiency.
cc: Richard A. Siegel